No. 20-________

In the Supreme Court of the United States
STATE OF LOUISIANA,
Petitioner
v.
AARON HAUSER,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Louisiana

APPENDIX

Louisiana Supreme Court Rehearing Denial
(October 6, 2020)……………………………………….………………………...001
Louisiana Supreme Court Writ Denial
(July 2, 2020)……………………………………………………………………...002
Decision of the Louisiana Third Circuit Court of Appeal
(December 30, 2019/ Rehearing denied February 19, 2020)…………….…004
36th Judicial District Court Ruling
(December 20, 2018)…….………….………………………………………...….030

State v. Hauser, 302 So.3d 514 (2020)
2020-00429 (La. 10/6/20)

302 So.3d 514 (Mem)
Supreme Court of Louisiana.
STATE of Louisiana
v.
Aaron G. HAUSER
No. 2020-K-00429
|
10/06/2020
Applying for Rehearing/Reconsideration, Parish of
Beauregard, 36th Judicial District Court Number(s)
CR-548-1983, Court of Appeal, Third Circuit, Number(s)
KA19-341.
Opinion
**1 Application for reconsideration not considered. See
Louisiana Supreme Court Rule IX, § 6.

Weimer, J., concurs in the refusal to reconsider and assigns
reasons.
Crichton, J., would grant reconsideration and assigns reasons.
Crain, J., concurs for reasons assigned by Justice Weimer.
WEIMER, J., concurs in the refusal to reconsider and assigns
reasons.
Although I previously voted to grant the state's writ
application in this matter and continue to believe this matter
should have been granted and docketed, I am constrained by

End of Document

La. S.Ct. Rule IX, § 6 and La. C.Cr.P. art. 922(D) to not
consider this request for reconsideration.

Crichton, J., would grant reconsideration and assigns
reasons:
I would grant the State's application for reconsideration in
accordance with my vote *515 to grant and docket the
State's original writ application. In my view, this matter
highlights the lower courts’ need for guidance as to the proper
procedures and standards to be applied in juvenile homicide
sentencing hearings, as informed by Miller v. Alabama, 567
U.S. 460, 132 S.Ct. 2455, 183 L.Ed.2d 407 (2012) and
Montgomery v. Louisiana, 577 U.S. ––––, 136 S.Ct. 718,
193 L.Ed.2d 599 (2016). As I have previously stated, while
Supreme Court Rule IX, § 6 prohibits reconsideration of
a prior writ denial, an exception to this rule must exist in
order to further the interest of justice in certain extraordinary
circumstances where good cause is shown. See also Harris v.
Am. Home Assurance Co., 2018-589 (La. 8/31/18), 251 So. 3d
397, 398 (Crichton, J., would grant reconsideration); Marable
v. Empire Truck Sales of La., LLC, 2017-1469 (La. 11/17/17),
230 So.3d 212 (Crichton, J., would grant reconsideration);
State v. Franklin, 2019-1454 (La. 1/14/20), 286 So. 3d 1039
(mem) (Crichton, J., additionally concurring with grant of
reconsideration). Such good cause has been shown here, and
I therefore conclude the extraordinary circumstances at hand
require that this internal operations rule yield in the interest
of justice.
All Citations
302 So.3d 514 (Mem), 2020-00429 (La. 10/6/20)
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

PET
APP U.S.
001 Government Works.
© 2021 Thomson Reuters. No claim
to original

1

297 So.3d 730 (Mem)
Supreme Court of Louisiana.
STATE of Louisiana
v.
Aaron G. HAUSER
No. 2020-K-00429
|
07/02/2020
Applying For Writ of Certiorari, Parish of
Beauregard, 36th Judicial District Court
Number(s) CR-548-1983, Court of
Appeal, Third Circuit, Number(s) KA19341.
*1 Writ application denied.
Weimer, J., would grant and docket.
Crichton, J., would grant and docket and
assigns reasons.
Crain, J., would grant and docket for
reasons assigned by Justice Crichton.
Opinion
CRICHTON, J., would grant and docket
and assigns reasons:
I would grant and docket the State’s writ
application to provide the Court an
opportunity to set necessary parameters
and guidelines concerning the scope of a
hearing pursuant to both Miller v.
Alabama, 567 U.S. 460, 132 S.Ct. 2455,
183 L.Ed.2d 407 (2012) and Montgomery
v. Louisiana, 577 U.S. ––––, 136 S.Ct.
718, 193 L.Ed.2d 599 (2016). The district
court in this matter recognized the
voluminous evidence of defendant’s

rehabilitation since his imprisonment but
determined that such evidence did not
outweigh the heinousness of his crimes,
finding the murders of defendant’s stepbrother and step-mother were not the
result of impulsiveness or transient
immaturity but were calculated acts of
cold-blooded murder. Accordingly, the
district court denied defendant parole
eligibility for either count of first degree
murder. On review the court of appeal
found the district court abused its
discretion in denying defendant the
benefit of parole on both counts of first
degree murder, reasoning that the
extensive evidence of defendant’s
rehabilitation demonstrated he was not
irreparably corrupt.
In my view, the lower courts require
further guidance on both the application
of the requirements of La. C.Cr.P. art.
878.1 and the appropriate standard of
review to be applied by the appellate
courts. See also *2 State v. Allen, 18-1042
(La. 11/5/18), 255 So.3d 998 (Crichton,
J., would grant and docket) (“[I]n making
this determination [as to parole
eligibility], a court should focus on the
facts of the underlying conviction and
defendant’s criminal history, if any, as
well as the defendant’s behavior record
during confinement. Education, family
background, and issues of family support
would also likely prove helpful in the
judge’s determination.”); see Scott
Crichton & Stuart Kottle, Appealing
Standards: Louisiana’s Constitutional
Provision Governing Appellate Review of
Criminal Facts, 79 La. L. Rev. 369, 390
(2018) (“Often, the appropriate standard
of review is ‘manifest abuse of
discretion.” ’). Accordingly, I would

PET APP 002

grant and docket this writ application to
examine the multiple issues presented and
to address proper procedures and
standards for sentencing hearings in

juvenile homicide cases, as informed by
Miller and Montgomery.

PET APP 003

STATE of Louisiana
v.
Aaron G. HAUSER
2019 WL 7491511
Court of Appeal of Louisiana, Third Circuit.
19-341
|
12/30/2019
|
Rehearing Denied February 19, 2020
APPEAL FROM THE THIRTY-SIXTH
JUDICIAL DISTRICT COURT, PARISH
OF BEAUREGARD, NO. CR-548-1983,
HONORABLE C. KERRY ANDERSON,
DISTRICT JUDGE

concurrent life terms without benefit of
parole, probation, or suspension of sentence
on April 26, 1984. He now seeks review of
the trial court’s denial of his motion to correct
his illegal sentences pursuant to Miller v.
Alabama, 567 U.S. 460, 132 S.Ct. 2455, 183
L.Ed.2d 407 (2012), and
Montgomery v.
Louisiana, ––– U.S. ––––, 136 S.Ct. 718, 193
L.Ed.2d 599 (2016). For the following
reasons, we reverse the trial court judgment
upon finding that Defendant has provided
sufficient evidence to show he is not
irreparably corrupt and is entitled to
resentencing to two concurrent life sentences
with the possibility of parole.1
FACTS:2

Attorneys and Law Firms
James R. Lestage, District Attorney, Richard
A. Morton, Assistant District Attorney, 36th
Judicial District, 124 South Stewart Street,
DeRidder, LA 70634, (337) 463-5578,
COUNSEL FOR APPELLEE: State of
Louisiana
Jill Pasquarella, Kristin Wenstrom, Hannah
Van De Car, Louisiana Center for Children’s
Rights, 1100-B Milton Street, New Orleans,
LA 70122, (504) 658-6855, COUNSEL FOR
DEFENDANT/APPELLANT: Aaron G.
Hauser
Court composed of Ulysses Gene
Thibodeaux, Chief Judge, Phyllis M. Keaty,
and Candyce G. Perret, Judges.
Opinion
PERRET, Judge.
*1 Defendant, Aaron Hauser, was indicted on
July 19, 1983, for the July 4, 1983 first degree
murders of his stepmother, Joan Hauser, and
her son, John Leidig, violations of La.R.S.
14:30. He pled guilty to both counts without
capital punishment and was sentenced to two

Defendant committed the first degree
murders of his stepmother and her son on July
4, 1983, with the help of an accomplice,
William Kinkade. Defendant was born on
October 13, 1965, making him seventeen
years, eight months, and twenty-one days old
at the time of the murders.
Defendant’s parents separated in 1977 when
he was around twelve years old and his sister
Robin was fourteen. Custody was granted to
Defendant’s father, George Hauser.3
Defendant testified he went to live with his
mother, Frances **2 Hauser, to get away
from his father. The next year, Defendant’s
parents agreed to transfer his custody to
Frances. George testified he saw no future for
Defendant in his home.
As an agricultural worker, George worked
“from daylight to dark and sometimes more.”
Frances was the children’s primary caretaker
before the separation. When the children
were little, George read books to them. As
they got older, they would watch television
together. The children grew up “just like any
typical farm kids[,]” sometimes going fishing
and performing “a few minor chores[.]”

PET APP 004

Although George was “not a lovey-dovey
man,” he “had appreciation for kids[,]” and
most children liked him. The children played
and visited with their cousins who lived
nearby and participated in “school parties,
Four-H Club activities.” Defendant “was just
a normal kid” who spent his time with George
or Frances, his cousins or “some other kids in
the neighborhood.” Every two years the
family visited Frances’s family in Maryland;
in the other years, the family vacationed at
various places around the country.
*2 The Hausers’ divorce became final on
January 4, 1979. In August of 1979, the
Hausers agreed to transfer custody of
Defendant’s sister Robin to Frances.
Defendant said Robin asked to live with
Frances because George did not want her
anymore. He said George put all of Robin’s
things “in garbage bags and put them out on
the attorney’s parking lot.” Defendant and
Frances rented a trailer and brought Robin
and her things back to Kerrville, Texas.
George described Defendant as “the average
kid” in relation to his performance in school.
George did not whip the children, but he
disciplined them with lectures. He did not
consider Defendant to be a troublesome
child. He thought Defendant wanted to live
with Frances after the divorce because she
babied him. George did not think the children
ever feared him.
**3 George had limited contact with his
children once they moved to Texas with their
mother. They saw each other only when
George would “go get them,” and he “didn’t
have funds to run to Texas.” Still, he testified
he saw them about every two weeks.
However, Defendant testified George never
called or wrote to the children after they went
to live with their mother. Defendant
disagreed with George’s testimony that he
saw them every other week and took them out

to eat. He said George never initiated any
contact with them. When asked whether
Defendant and Joan had a loving relationship
after he and Joan were married, George
replied, “If you was [sic] a little kid and a
strange woman moved in, would you have a
loving relationship? You may have a respect,
but you wouldn’t have a loving relationship.”
Defendant dropped out of school in the ninth
grade, but he obtained his GED and wanted
to further his education. He thought about
going to Sowela Technical Community
College to learn welding. When he told his
father, George said Sowela cost $25 per
month, so he would give him $25 a month but
no more. Defendant looked at other options,
but they were too expensive, so he enlisted in
the Navy at age seventeen with his mother’s
consent. He “felt like that was the only way
out to have a better life.”
According to Defendant’s testimony at the
resentencing hearing, after he enlisted, he
was beaten and sexually assaulted in boot
camp. Mr. Kinkade was Frances’s next-door
neighbor, and he had also been in the Navy.
Frances told Mr. Kinkade about what
happened to Defendant, and he and Mr.
Kinkade became good friends.
Defendant told no one in a position of
authority about the assault, but he called
Frances a few days later “and tried to tell her
some of what happened.” Defendant denied
the incident happened when questioned by
Navy investigators. **4 Their report of the
attack indicates Defendant had a lump on his
head and two fractured ribs when the
investigators spoke to him. Defendant was
discharged for medical reasons regarding his
eyesight, and he returned to Kerrville.
Defendant testified Frances spoke to George
about the assault and insisted that Defendant
himself tell George what happened. Finally,

PET APP 005

Defendant called his father. After about thirty
seconds of conversation, George told
Defendant he was not his responsibility
anymore, and the conversation ended.
George testified he never knew anything
about Defendant being abused in the Navy. In
fact, he believed Defendant “never was active
or inducted or whatever. He was just wanting
to.” However, when asked about Defendant
joining the Navy, George also testified
Defendant had called one night and said
whatever was going on “didn’t suit him.”
George explained, “And he was wanting me
to do something, but how could I do anything
from here and this is up around the Great
Lakes somewhere? And I told him, son, that’s
just part of it; you’ve got to learn to live, to
take directions from somebody else.”
*3 Defendant “wanted to do anything to
strike back” at George. He felt George “was
responsible for what happened to [him] in the
Navy[.]” Defendant said, “I felt like
everything bad in my life at that time was
caused by him.” He believed “if he would
have been a father to me, at least sometime in
my life when I really needed it, I wouldn’t
have been hurting like I was then.” Defendant
no longer felt that way, but he testified, “No
17-year-old boy that something like that
happen to him is going to be able to think
clearly and rationally.”
Defendant felt George had hurt his mother
and his sister. Also, he felt if George “would
have helped [him] get some kind of a more
decent life, [he] wouldn’t have enlisted in the
Navy, [and the assault] wouldn’t have
happened.” He wanted to get back at his
father. Defendant “didn’t have much of a **5
relationship” with his stepmother Joan, and
he had no ongoing relationship with his
stepbrother John. George considered himself
to have “somewhat of a loving relationship”
with John.

Mr. Kinkade gave a statement on the day of
the murders in which he said Defendant had
been upset about three weeks before when he
had asked his father for money from a trust or
other type of fund. George would not give
him the money. Mr. Kinkade later agreed to
go to Louisiana with Defendant to pick up
some of his things. In Kerrville, they planned
their trip to Beauregard Parish as a robbery.
Defendant asked Mr. Kinkade to accompany
him to take things his father had that
belonged to him. He specifically mentioned
education money that Defendant thought
George had. They purchased surgical gloves
so they would not leave fingerprints. Prior to
the trip, Defendant paid for guns that Mr.
Kinkade purchased in his name because
Defendant was underage.
The pair left Kerrville on a Sunday evening
in Frances’s pickup truck and arrived in
Beauregard Parish around 3:00 a.m. Frances
was out of town to attend a relative’s funeral.
They parked their vehicle in the woods and
left the truck with Defendant and Mr.
Kinkade carrying flashlights they had
purchased in Kerrville. Defendant carried a
.223 caliber “mini-14” semi-automatic rifle,
and Mr. Kinkade carried a .357 revolver.
They waited in a shed near the house until
daylight. Defendant took the mini-14 and led
Mr. Kinkade under a fence and through a
barn until they got close to the house. They
saw a man leave the house, and Defendant
went inside. While Mr. Kinkade waited
outside for Defendant, he heard gunfire and a
woman’s scream from inside. He fled the
scene to a nearby house and reported a
shooting to the Beauregard Parish Sheriff’s
Department.
Defendant testified he did not see Joan’s car
at the house, and he thought no one was
home. He wanted to retrieve a rock collection
George would not let him **6 have and a

PET APP 006

small coin collection. However, Defendant
said the main reason was “to let him know
that – you know, that I hurt and that I felt like
he hurt me a lot when I was a little kid.”
Defendant opened a door on the side of the
house, still armed with the mini-14, and saw
Joan there. He said he “just was overcome
with emotion,” and he went in the house and
shot her. He then walked down the hall to his
former bedroom and saw John in his bed.
Defendant felt that was still his bedroom, and
he was upset to see John there. He shot John
in the face and the right arm. John’s body was
found in his bed with the covers pulled up
over it. No blood was found on the outer
covers, suggesting Defendant covered John
after he shot him.
A cellmate of Defendant gave a statement
saying Defendant told him about shooting
Joan and John and robbing the house.
Defendant told the cellmate he then found a
pitcher of Kool-Aid in the refrigerator and
drank it. Defendant admitted to his cellmate
that he originally said Mr. Kinkade had
murdered the victims.
*4 Another cellmate gave a statement saying
Defendant told him he wanted to “get back at
his step mother and step brother for what they
had done to him when he was little.”
Defendant described the shootings to him and
told him how he found some money and took
it, drank some Kool-Aid, took the car, and
left. The cellmate said Defendant laughed the
entire time he told his story.4
After the murders, Defendant looked around
the house for his collections, focused on
wanting his things. Texas authorities arrested
Defendant in Kerrville later in the day in the
vehicle he and Mr. Kinkade had taken to
DeRidder. They seized gold and silver coins,
a mini-14 semi-automatic rifle, ammunition,
a pair of surgical gloves, and other items.
When George later went through the house,

he **7 said gold and silver coins, paper
money, savings bonds in his name, and a
savings passbook were missing.
Joan’s autopsy report indicated she sustained
two gunshot wounds, either of which could
have been fatal. One wound was to the right
cheek below the right eye, and the second
wound was to the right posterior chest. John’s
autopsy report indicated he also sustained
two gunshot wounds. The wound to his head,
just below the right eye, caused his death. A
second wound was to his right forearm.
Mr. Kinkade was also charged with two
counts of first degree murder and one count
of aggravated burglary for his part in these
events. State v. Kinkade, 470 So.2d 442
(La.App. 3 Cir. 1985). He pled guilty to
attempted aggravated burglary in exchange
for dismissal of those charges. This court
affirmed his sentence of fifteen years at hard
labor, enhanced with an additional
mandatory two-year term to be served
consecutively and without benefit of parole,
probation, suspension of sentence, or credit
for good time pursuant to La.R.S. 14:95.2
because his crime involved the use of a
firearm.
George believed the State should pursue the
death penalty for Defendant’s crimes.
However, he was advised that a jury would
probably not do that, and he believed
Defendant would spend his life in prison
without parole. George’s step-children
(Joan’s surviving children) agreed to life
sentences without parole. George believed
Defendant would “never be a productive
citizen.” He had not communicated with
Defendant since the murders because he had
no “interest in associating with somebody
with that frame of mind.” Although
Defendant wrote to George a few times
during his first year or two at Angola, he
“never asked for forgiveness or apologized or

PET APP 007

anything.” George preferred that Defendant
“stays locked up.” If Defendant were
released, George would “like for the Court to
have him stay out of Beauregard Parish ....”
**8 Of Joan’s four children, two were adults,
and one was in college. Only John lived in
George’s home. John told his father he would
rather live with George in the country than
with his father in town. George considered
that “somewhat of a loving relationship.”
George testified he was a Christian who
believed in the hereafter. At first, he said he
believed people could change. However,
George stood by his belief that, even in spite
of evidence, Defendant has not changed since
the murders. He felt Defendant had the
opportunity for a relationship as he was
growing up in George’s home, but instead, he
chose “to go out and kill two people.”
*5 Dr. Raymond Leidig, a veterinarian who
was Joan’s first husband, testified the District
Attorney’s office had advised him and his
children “on what to accept” as Defendant’s
plea. Dr. Leidig understood Defendant “had
pleaded guilty and would take life
imprisonment without parole.” He believed
Defendant “should stay, serve his sentence”
for the rest of his life. When asked if he
believed people could be rehabilitated, Dr.
Leidig responded, “I believe people can be
saved and forgiven by God.”
About ten years after the murders, Dr. Leidig
received a letter from Defendant in which
Defendant asked for Dr. Leidig’s
forgiveness. Dr. Leidig told Defendant he
had forgiven him, “but the two people on this
earth that needed to forgive him were in the
grave and that the only forgiveness he could
seek further than that would be forgiveness
from the Lord God and I wished that he
would.” Defendant wrote Dr. Leidig again to
say “he had found God in a prison church

service[,]” and he thanked Dr. Leidig for
responding to his letter.
Dr. Leidig said Defendant wrote him again
about a month later. He “just about called
every name that any person could call
anybody; and some of them wasn’t [sic] too
nice. And low-rated me for not writing him
back after the second **9 letter.” Dr. Leidig
described Defendant’s words as “[p]rofanity
and anything else you want to think of.” Dr.
Leidig told the trial court, “when the
Supreme Court made this ruling, they were
unable to make a ruling that would raise my
son and his mother from the grave. Since
they’ve got to stay there, my personal feeling
is that the man that put them there should
have to stay where he is.” When asked about
his beliefs of convicted felons, he explained,
if you serve your time that is set, put upon
you by the courts, you have the right to be
released.” Dr. Leidig could not say whether
Defendant had been changed with
rehabilitation, but he would be glad if that
were true.
Donna Kay Leidig Kelly, John’s sister,
testified she had been in favor of the death
penalty for Defendant, but “[a]s long as he
was going to stay” in prison, she “was good
with that. Because [she] would not have to
deal with this again, ever.” Ms. Kelly
opposed Defendant having parole eligibility.
She worked in the medical field, and she had
“seen what the outcome of some supposedly
rehabilitated people have done.”
Ms. Kelly testified she was never aware of
any conflict that had arisen between Joan and
Defendant or John and Defendant. She knew
of nothing that may have provoked
Defendant. Ms. Kelly heard the testimony
insinuating Defendant lacked attention from
and had a tough life living with George. She
noted her mother and brother contributed
nothing to that, but they were the ones he

PET APP 008

killed. She said John enjoyed his life on the
farm, liked being outdoors, and never
complained about George, who she said she
had never seen get mad. Her mother likewise
never complained about George being
abusive or mean. Ms. Kelly described George
as “a wonderful man” who was very good to
her mother and her brother. She has had no
contact with or from Defendant since the
murders.
**10 David Leidig, Joan’s son and John’s
brother, testified he had no bad feelings
toward Defendant. However, he felt
Defendant “should stay in prison to serve his
sentence which was agreed to at that time.”
He did not think Defendant should have
parole eligibility. Neither Joan nor John ever
told Mr. Leidig of any conflict with
Defendant or of anything that might have
provoked him. Mr. Leidig did not recall ever
meeting Defendant, and he had never had any
contact with him. He considered Defendant’s
acts to be those “of a cold-blooded killer.” He
thought those acts “elevate[ ] this crime to a
different level[.]” He also felt Defendant
“chose life without parole, not 35 years then
parole.”
PROCEDURAL HISTORY:
*6 On March 19, 2013, Defendant filed a pro
se motion to correct an illegal and invalid
sentence based on Miller. The trial court
denied the motion without a hearing on
March 22, 2013, finding Defendant was an
adult over the age of eighteen and not a
juvenile, as his motion alleged.5 This court
denied Defendant’s writ application on the
grounds that
Miller, 567 U.S. 460, 132
S.Ct. 2455, did not apply retroactively. State
v. Hauser, 13-391 (La.App. 3 Cir. 8/5/13)
(unpublished opinion). The Louisiana
Supreme Court denied his writ application.
State ex rel. Hauser v. State, 13-2028 (La.
7/31/14), 146 So.3d 202.

Defendant filed a motion to have counsel
appointed to represent him on August 7,
2013. The trial court denied that motion
because Defendant was represented by
counsel at the time he was sentenced and
because Miller did not apply retroactively.
On September 4, 2014, Defendant filed a
petition for writ of habeas corpus in the
United States District Court for the Western
District of Louisiana. While **11
Defendant’s habeas writ was pending, the
State filed a motion to implement the new
rule of law set out in
Miller and
Montgomery on April 13, 2016. The motion
explained that legislation pending at the time
would incorporate those decisions into
Louisiana law; once that legislation was
enacted, Defendant would be entitled to the
hearing he requested in his motion to correct
his illegal and invalid sentence. Thus, the
State asked the trial court to reconsider
Defendant’s motion in light of Miller and
Montgomery. The trial court issued an
order on April 13, 2016, for a hearing to be
set within sixty days of the effective date of
the anticipated new legislation implementing
Miller and Montgomery.
The State filed another motion to reconsider
Defendant’s sentence on June 23, 2016. That
motion sought a sentencing hearing pursuant
to La.Code Crim.P. art. 878.1 in effect at
the time even though the legislature had
failed to enact the expected legislation. The
State noted Defendant would be entitled to a
hearing on his parole eligibility according to
Miller and
Montgomery even without
new legislation. In response, the trial court
appointed counsel for Defendant and
scheduled a status conference to discuss prehearing issues.
On July 13, 2016, Defendant filed another
motion to correct an illegal sentence and set

PET APP 009

a date for the
Miller hearing. He also
asked the trial court to appoint counsel and to
provide funding for experts for his defense
team. Specifically, Defendant’s motion
sought a defense team of two lawyers with
specialized experience, a fact investigator,
and a mitigation investigator. The trial court
denied the motion as moot and “[a]lready
addressed.”
Defendant made an oral motion to recuse
both judges of the Thirty-Sixth Judicial
District Court on July 26, 2016, followed by
a written motion filed on September 9, 2016.
Judge Vernon B. Clark of the Thirtieth
Judicial District Court was appointed to hear
the motion. On November 17, 2016, Judge
Clark rendered a **12 written judgment
granting the motion to recuse as to Judge
Martha Ann O’Neal but finding no factual
basis to recuse Judge C. Kerry Anderson. The
judgment designated Judge Anderson as the
presiding judge for all future proceedings in
the matter.
After numerous filings (indicated on the
federal court’s docket sheet), on September
2, 2016, the federal court granted
Defendant’s petition for habeas corpus and
remanded his case to the trial court for
resentencing. Defendant filed a motion for a
“reliable sentencing hearing” consistent with
Miller and for a funding source for
mitigation specialists on April 28, 2017. The
trial court responded by setting a pre-trial
conference to discuss scheduling and pre-trial
issues and to set a scheduling order.
*7 On September 19, 2017, the State filed its
notice of intent to seek sentences of life
without the possibility of parole (“LWOP”)
pursuant to
La.Code Crim.P. art. 878.1
and 2017 La. Acts No. 277. On September
27, 2017, the State filed an opposition to
Defendant’s motion for a reliable sentencing
hearing. It also filed procedural objections to

Defendant’s claim of a right to resentencing
pursuant to Miller and Montgomery on
December 12, 2017.
The trial court issued an order on January 24,
2018, setting a
Miller/
Montgomery
hearing. On January 31, 2018, the trial court
issued another order denying Defendant’s
request to provide funds for a mitigation
specialist. The order also denied Defendant’s
request to require the State to prove
aggravating factors at the
Miller/
Montgomery hearing. The trial court filed
written reasons for its rulings.
On March 23, 2018, Defendant filed a motion
to preclude a life sentence without parole
because of the State’s failure to provide
funding for the resentencing hearing.
Defendant also filed a motion for funding for
a psychologist **13 or psychiatrist and other
expert witnesses in anticipation of the
resentencing hearing on April 25, 2018.6 The
hearing of that motion and for resentencing
began on April 26, 2018. The trial court
issued an order on May 30, 2018, which
stated:
[T]he Court hereby DENIED the
motion for Funding to be provided by
the Criminal Court Fund and
DENIED that defendant proved the
necessity of expert testimony but
hereby ORDERS the Office of the
Public Defender for the 36th Judicial
District or the Louisiana Public
Defender Board to pay the appointed
or
designated
psychiatric/psychological
examination or any other expert
deemed desirable by defense at a cap
of $3500 upon receipt of an itemized
bill for services rendered.
The resentencing hearing reconvened on July
6, 2018, to accept exhibits from both parties,

PET APP 010

hear testimony from witnesses, and establish
a post-hearing briefing schedule. Prior to the
close of the hearing, the trial court
ascertained that Defendant had been given
the opportunity to present all the evidence he
wanted. Defendant filed his memorandum in
support of his resentencing on August 14,
2018, and the State filed its memorandum on
August 30, 2018.
On December 20, 2018, the trial court issued
its ruling and ordered Defendant to “continue
to serve his existing sentences of life
imprisonment without parole eligibility on
each of the two counts of First Degree
Murder.” Defendant now appeals that ruling.
On appeal, Defendant raises the following
assignments of error:
1. The Trial Court Violated Clearly
Established Law in Ruling that Miller
v. Alabama Does Not Apply to this Case.
2. The Trial Court Failed to Vacate the
Previously Imposed Unconstitutional
Sentence.
3. Because the Trial Court Ruled that
Miller did not Apply, it Failed to
Undertake the Analysis Required By the
Eighth Amendment.
4. The Trial Court Erred in Concluding
that Aaron Hauser’s Crime was not the
Result of Transient Immaturity.
**14 5. The Trial Court Failed to Conduct
an Analysis as to whether Aaron Hauser is
Irreparably Corrupt, resulting in an
Unconstitutional Sentence.
6. The Sentencing Judge’s Improper Focus
on the Nature of the Crime Further
Rendered Him Unable to Undertake the
Analysis Required by the Eighth
Amendment.
7. The State Failed to Meet its Burden in
Establishing that Aaron Hauser is the
“Worst Offender” with the “Worst Case.”
*8 8. The Trial Court Erred in Failing to
Apply a Presumption Against Sentencing

a Juvenile to Life Without the Possibility
of Parole.
9. The State Failed to Rebut the
Presumption that Aaron Hauser Should be
Eligible for Parole When it Failed to Prove
that he is the Rare Juvenile Who is
Irreparably Corrupt.
10. No Reasonable Sentencer could
Conclude that Aaron Hauser has not
Demonstrated
Maturity
and
Rehabilitation.
11. The Trial Court Erred when it Denied
Aaron Hauser a Critical Member of his
Defense Team — a Mitigation
Investigator.
12. Aaron Hauser’s Sixth Amendment
Rights were Violated when he was
Sentenced by a Judge instead of a Jury.
13. The Trial Court Erred when it Failed to
Limit the Scope of Victim Impact
Evidence and Testimony[.]
14. Aaron Hauser was denied his Sixth
Amendment right to Effective Assistance
of Counsel at Sentencing[.]
15. Aaron Hauser was Denied Effective
Assistance of Counsel because his
Attorneys Were Working under a Direct
Conflict of Interest.
16. Aaron Hauser’s Counsel Failed to
Demand on his Behalf “All Resources
Necessary to Provide High Quality Legal
Representation” as Mandated by the
LPDB Performance Standards.
17. Aaron Hauser’s Counsel Failed to
Assemble the Defense Team Mandated by
the LPDB Performance Standards.
18. Aaron Hauser’s Counsel Failed to
Perform the Mitigation Investigation
required by Miller v. Alabama, State
v. Montgomery, La. C. Cr. P. art. 878.15
and the LPDB Performance Standards.
19. The Absence of Mitigating Evidence at
the Sentencing Hearing was not the Result
of Defense Counsel’s “Reasonable
Strategic **15 Decisions” Because she
Failed to Perform the Investigation

PET APP 011

Necessary to Make those Decisions.
20. Counsel’s Deficient Performance
Prejudiced the Defense at Aaron Hauser’s
Miller Sentencing Hearing and
Resulted in the Trial Court Erroneously
Sentencing Aaron to Die in Prison.
ERRORS PATENT:
In accordance with La.Code Crim.P. art. 920,
all appeals are reviewed for errors patent on
the face of the record. After reviewing the
record, we find there are no errors patent.
DISCUSSION:
Before we address Defendant’s specific
claims, we begin with a review of the
applicable Louisiana statutes and controlling
jurisprudence regarding juvenile sentencing.
Louisiana Code of Criminal Procedure
Article 878.1 states, in pertinent part:
B. (1) If an offender was indicted prior to
August 1, 2017, for the crime of first
degree murder ( R.S. 14:30) or second
degree murder ( R.S. 14:30.1) where the
offender was under the age of eighteen
years at the time of the commission of the
offense and a hearing was not held
pursuant to this Article prior to August 1,
2017, to determine whether the offender’s
sentence should be imposed with or
without parole eligibility, the district
attorney may file a notice of intent to seek
a sentence of life imprisonment without
the possibility of parole within ninety days
of August 1, 2017. If the district attorney
timely files the notice of intent, a hearing
shall be conducted to determine whether
the sentence shall be imposed with or
without parole eligibility. If the court
determines that the sentence shall be
imposed with parole eligibility, the
offender shall be eligible for parole
pursuant to
R.S. 15:574.4(G). If the

district attorney fails to timely file the
notice of intent, the offender shall be
eligible for parole pursuant to
R.S.
15:574.4(E) without the need of a judicial
determination pursuant to the provisions
of this Article. If the court determines that
the sentence shall be imposed without
parole eligibility, the offender shall not be
eligible for parole.
*9 ....
C. At the hearing, the prosecution and
defense shall be allowed to introduce any
aggravating and mitigating evidence that
is relevant to the charged offense or the
character of the offender, including but not
limited to the facts and circumstances of
the crime, the criminal **16 history of the
offender, the offender’s level of family
support, social history, and such other
factors as the court may deem relevant.
The admissibility of expert witness
testimony in these matters shall be
governed by Chapter 7 of the Code of
Evidence.
D. The sole purpose of the hearing is to
determine whether the sentence shall be
imposed with or without parole eligibility.
The court shall state for the record the
considerations taken into account and the
factual basis for its determination.
Sentences imposed without parole
eligibility and determinations that an
offender is not entitled to parole eligibility
should normally be reserved for the worst
offenders and the worst cases.
Louisiana Revised Statutes 15:574.4(G)
states, in pertinent part:
(1) Notwithstanding any provision of law
to the contrary, any person serving a
sentence of life imprisonment for a
conviction of first degree murder ( R.S.
14:30) or second degree murder ( R.S.

PET APP 012

14:30.1) who was under the age of
eighteen years at the time of the
commission of the offense and whose
indictment for the offense was prior to
August 1, 2017, shall be eligible for parole
consideration pursuant to the provisions of
this Subsection if a judicial determination
has been made that the person is entitled to
parole eligibility pursuant to
Code of
Criminal Procedure Article 878.1(B) and
all of the following conditions have been
met:
(a) The offender has served twenty-five
years of the sentence imposed.
(b) The offender has not committed any
major disciplinary offenses in the twelve
consecutive months prior to the parole
hearing date. A major disciplinary offense
is an offense identified as a Schedule B
offense by the Department of Public
Safety and Corrections in the Disciplinary
Rules and Procedures for Adult Offenders.
(c) The offender has completed the
mandatory minimum of one hundred hours
of pre-release programming in accordance
with R.S. 15:827.1.
(d) The offender has completed substance
abuse treatment as applicable.
(e) The offender has obtained a GED
certification, unless the offender has
previously obtained a high school diploma
or is deemed by a certified educator as
being incapable of obtaining a GED
certification due to a learning disability. If
the offender is deemed incapable of
obtaining a GED certification, the offender
shall complete at least one of the
following:
(i) A literacy program.
**17 (ii) An adult basic education

program.
(iii) A job skills training program.
(f) The offender has obtained a low-risk
level designation determined by a
validated risk assessment instrument
approved by the secretary of the
Department of Public Safety and
Corrections.
(g) The offender has completed a reentry
program to be determined by the
Department of Public Safety and
Corrections.
*10 (2) For each offender eligible for
parole consideration pursuant to the
provisions of this Subsection, the board
shall meet in a three-member panel, and
each member of the panel shall be
provided with and shall consider a written
evaluation of the offender by a person who
has expertise in adolescent brain
development and behavior and any other
relevant evidence pertaining to the
offender.
(3) The panel shall render specific findings
of fact in support of its decision.
In
Miller, the Supreme Court addressed
the life sentences without the possibility of
parole of two juvenile defendants, one from
Alabama and the other from Arkansas. The
Court held “the Eighth Amendment forbids a
sentencing scheme that mandates life in
prison without possibility of parole for
juvenile offenders.”
Miller, 567 U.S. at
479, 132 S.Ct. 2455. The Court did not
“foreclose a sentencer’s ability to make that
judgment in homicide cases,” but it required
courts “to take into account how children are
different, and how those differences counsel
against irrevocably sentencing them to a
lifetime in prison.” Id.
[1] [2]

PET APP 013

Miller “does not categorically bar a

penalty for a class of offenders or type of
crime ....”
Id. at 483, 132 S.Ct. 2455. It
does require a sentencing court to “follow a
certain process—considering an offender’s
youth and attendant characteristics—before
imposing a particular penalty.”
Id. That
court “must have the opportunity to consider
mitigating circumstances before imposing
the harshest possible penalty for juveniles.”
Id. at 489, 132 S.Ct. 2455.
**18 [3] Montgomery likewise prescribed a
hearing to consider “ ‘youth and its attendant
characteristics’ ” as sentencing factors.
Montgomery, 136 S.Ct. at 735. The Court
found parole eligibility ensures “juveniles
whose crimes reflected only transient
immaturity—and who have since matured—
will not be forced to serve a disproportionate
sentence in violation of the Eighth
Amendment.”
Id. at 736. “The
opportunity for release will be afforded to
those who demonstrate the truth of Miller’s
central intuition—that children who commit
even heinous crimes are capable of change.”
Id. Thus, prisoners sentenced to LWOP as
juveniles “must be given the opportunity to
show their crime did not reflect irreparable
corruption; and, if it did not, their hope for
some years of life outside prison walls must
be restored.” Id. at 736-37.
ASSIGNMENT OF ERROR NO. 1:
Defendant argues the trial court violated
clearly established law in ruling that he was
not entitled to a hearing pursuant to
Miller. The trial court issued a lengthy and
detailed ruling on December 20, 2018, in
which it agreed with the State that Miller
did not apply to this case because
Defendant’s sentence was imposed pursuant
to a plea agreement. However, even though it
found Miller did not apply, the trial court
proceeded with a hearing pursuant to

La.Code Crim.P. art. 878.1 and
La.R.S.
15:574.4. Defendant contends the trial
court’s ruling violates the federal court’s
remand for resentencing under Miller.
In State ex rel. Jenkins v. State, 17-302, p. 1
(La. 8/31/18), 252 So.3d 476, 476 (per
curiam), our supreme court, citing
Montgomery, 136 S.Ct. at 736, held “[a] State
may remedy a
Miller violation by
permitting juvenile homicide offenders to be
considered for parole, rather than by
resentencing them.” The court determined a
Miller hearing was unnecessary because
La.R.S. 15:574.4(E) **19 remedies a
Miller violation by providing parole
eligibility. Thus, the defendant was entitled
to parole eligibility without a
Miller
hearing.
*11
Louisiana Revised Statutes
15:574.4(G) now provides parole eligibility
when statutory requirements are met for
juveniles, such as Defendant, who were
convicted of first degree murder and indicted
prior to August 1, 2017. We find the supreme
court’s ruling in Jenkins, 252 So.3d 476,
recognizes that
La.R.S. 15:574.4(G)
satisfies the
Miller requirements. Thus,
Defendant received the hearing
Miller
requires, even though the trial judge said the
case itself did not apply.
The defendant in State v. Doise, 15-713
(La.App. 3 Cir. 2/24/16), 185 So.3d 335, writ
denied, 16-546 (La. 3/13/17), 216 So.3d 808,
was also a juvenile at the time he committed
second degree murder. He also pled guilty.
The trial court sentenced him to life
imprisonment with parole eligibility after
serving thirty-five years.
The Doise defendant argued
La.Code
Crim.P. art. 878.1 and
La.R.S.
15:574.4(E) did not satisfy
Miller and

PET APP 014

were unconstitutional. This court noted the
article and the statute were enacted in
response to
Miller and found “the mere
possibility of being released on parole is
more than sufficient to satisfy the chance of
parole eligibility after a hearing established
in
Miller for juvenile homicide
offenders.” Doise, 185 So.3d at 342. Thus,
“the mere access to the Board of Parole’s
consideration satisfies the mandates of
Miller.” Id. We note La.R.S. 15:574.4(G)
provides the same remedy to defendants
indicted prior to August 1, 2017, as
Subsection (E) was determined to grant in
Doise at the time, before Subsection (G) was
enacted.
Further, in Doise, this court cited Graham
v. Florida, 560 U.S. 48, 130 S.Ct. 2011, 176
L.Ed.2d 825 (2010), in which the Supreme
Court held “a juvenile who commits a nonhomicide **20 offense punishable by life
imprisonment must be eligible for parole.”
Doise, 185 So.3d at 342. However, relying on
State v. Shaffer, 11-1756 (La. 11/23/11),
77 So.3d 939 (per curiam), this court noted,
“the juvenile may not be released on parole
unless the Board of Parole decides to release
him.... Thus, in reality, a juvenile who
commits a non-homicide offense punishable
by life in Louisiana is only promised the
possibility of being released on parole.”7
Doise, 185 So.3d at 342. This court stated, “It
stands to reason that a juvenile who commits
a homicide offense punishable by life
imprisonment should be granted no greater
relief” than one who commits a nonhomicide offense. Id. Based on these
principles, this court concluded the defendant
failed to prove the legislative provisions
implemented in response to
Miller were
unconstitutional.
Applying this court’s reasoning in Doise, 185
So.3d 335, we find the provisions of

La.Code Crim.P. art. 878.1 and
La.R.S.
15:574.4(G) provide the same protections as
Miller. Further,
La.Code Crim.P. art.
878.1(D) and
Miller both recognize the
sole purpose of the hearing is to determine
parole eligibility. Thus, the trial court
correctly believed it was “only tasked with
determining whether the Defendant should be
granted an opportunity for parole
consideration.”
In the
Montgomery remand from the
Supreme Court, our supreme court explained:
During the 2016 legislative session,
legislation was proposed to address
those cases in which persons that
committed murder as juveniles and
were sentenced to life imprisonment
without parole eligibility before
Miller was decided, who the Supreme
Court determined in
Montgomery
must be resentenced in accordance
with the principles enunciated in
Miller. However, the Legislature
ultimately failed to take further action
in the last few moments of the
legislative
session
regarding
sentences of life without parole for
juvenile homicide offenders. See HB
264 of the 2016 Regular Session.
Therefore, in the absence of further
legislative action, the **21 previously
enacted provisions should be used for
the resentencing hearings that must
now be conducted on remand from
the United States Supreme Court to
determine
whether
Henry
Montgomery, and other prisoners like
him, will be granted or denied parole
eligibility.
*12
State v. Montgomery, 13-1163, p. 3
(La. 6/28/16), 194 So.3d 606, 608 (
Montgomery II). The “previously enacted

PET APP 015

provisions” to which the supreme court
referred are
La.Code Crim.P. art. 878.1
and La.R.S. 15:574.4(E). Montgomery
II, 194 So.3d at 607. Additionally, “the
District Court must also be mindful of the
Supreme Court’s directive in Miller, 132
S.Ct. at 2469, ‘to take into account how
children are different, and how those
differences counsel against irrevocably
sentencing them to a lifetime in prison.’ ”
Montgomery II, 194 So.3d at 609.
Accordingly, even though the trial court
found
Miller to be inapplicable, it still
considered the Miller test by applying
La.Code Crim.P. art. 878.1 and
La.R.S.
15:574.4(G) and by addressing the Miller
directives. Thus, even if the trial court
erroneously found
Miller did not apply,
Defendant received the hearing
Miller
requires.
[4]

The trial court noted Defendant agreed to
the sentences. The sentencing court
necessarily had to consider the agreement
before it accepted it. The trial court’s ruling
explained that once the sentencing court
accepted the agreement, it had no choice
about the sentences. Nevertheless, because
Defendant had to decide to enter the plea, and
the sentencing court had to decide whether to
accept it, the trial court found the resulting
sentences were not mandatory. The trial court
believed the sentencing court “would have of
necessity included consideration of the
mitigating characteristics” of Defendant’s
youth.
We find that the sentencing court carefully
ensured that Defendant understood all the
rights he relinquished by making his plea.
The court questioned Defendant about his
education; his understanding of prior
proceedings, the charges **22 in his case, his
Boykin rights, the possible verdicts at trial,
the possible sentences for those possible

verdicts, the ramifications of his plea, and the
voluntary and free will nature of his plea, and
the facts of the case prior to accepting the
plea. The trial court did not, however,
question Defendant about the
Miller
factors, presumably because it had no
discretion in imposing the statutorilyrequired sentences for the pled charges. Thus,
we find that the plea colloquy did not,
contrary to the trial court’s ruling, consider
any mitigating circumstances or satisfy the
requirements of
Miller. However, as
discussed, the trial court applied the
Miller factors and provided Defendant with a
Miller-equivalent hearing at resentencing.
Thus, we find this assignment of error lacks
merit.
ASSIGNMENT OF ERROR NO. 2:
Defendant contends the trial court
erroneously failed to vacate the previously
imposed unconstitutional sentences. Instead,
the trial court ordered Defendant to “continue
to serve his existing sentences of life
imprisonment without parole eligibility on
each of the two counts of First Degree
Murder.”
[5]

The purpose of the federal court’s remand
was to resentence Defendant pursuant to
Miller/ Montgomery. The trial court’s sole
purpose was to determine whether
Defendant’s mandatory life sentences were to
be served with or without parole eligibility as
the court did in Montgomery II.

[6]

We find that the trial court did just that. Had
the trial court determined Defendant was
eligible for parole, it presumably would have
vacated the sentences and resentenced him to
life imprisonment with parole eligibility.
However, because the trial court determined
Defendant was not parole eligible, vacating
his prior sentences and resentencing him to
two new terms of life imprisonment without

PET APP 016

parole eligibility was unnecessary. As this
court noted in State v. Comeaux, 17-682, p. 5
(La.App. 3 Cir. 2/15/18), 239 So.3d 920, 926,
writ denied, **23 18-428 (La. 1/14/19), 261
So.3d 783 (emphasis in original), “[g]iving
Miller retroactive effect, moreover, does
not require States to relitigate sentences, let
alone convictions, in every case where a
juvenile offender received mandatory life
without parole. A State may remedy a
Miller violation by permitting juvenile
homicide offenders to be considered for
parole, rather than by resentencing them.”
Accordingly, we find no merit to this
assignment of error.
ASSIGNMENTS OF ERROR NOS. 3, 4,
5, 6, 7, 8, AND 9:
*13 Defendant argues the trial court’s failure
to apply
Miller led to its failure to
undertake the analysis required by the Eighth
Amendment. Thus, Defendant was deprived
of his substantive sentencing rights created
by Miller and applied by Montgomery.
As discussed in Assignment of Error No. 1
above, we find that the trial court’s analysis
under La.Code Crim.P. art. 878.1 and
La.R.S. 15:574.4(E) satisfies the
Miller
directive.
Defendant contends the trial court erred by
failing to make the specific finding that his
crime was not the result of transient
immaturity. He also alleges the trial court
failed to conduct an analysis to determine
whether he is irreparably corrupt. Defendant
also contends the trial court placed improper
focus on the heinous nature of the crimes.
These errors, Defendant argues, rendered the
trial court unable to perform the proper
analysis required by the Eighth Amendment
and led to an unconstitutional sentence.
Defendant also contends the State failed to
establish he is the “worst offender” with the

“worst case.” He believes the trial court
erroneously failed to apply a presumption
against sentencing a juvenile to life without
the possibility of parole. He also argues the
State failed to rebut a presumption that he
should be eligible for parole and failed to
prove he is the rare juvenile who is
irreparably corrupt.
**24 The
Montgomery court explained
consideration for parole eligibility ensures
that “juveniles whose crimes reflected only
transient immaturity—and who have since
matured—will not be forced to serve a
disproportionate sentence in violation of the
Eighth Amendment.”
Montgomery, 136
S.Ct. at 736. Montgomery notes any preMiller juvenile convicted of homicide
could receive a LWOP sentence. PostMiller, however, “it will be the rare juvenile
offender who can receive that same
sentence.” Montgomery, 136 S.Ct. at 734.
However, a juvenile who is a worst offender
in the worst case is not entitled to the
possibility of parole. Justice Crichton of our
supreme court recognized the “unfortunate
truth” that some inmates “demonstrate
irretrievable depravity, ... have set forth zero
effort towards rehabilitation and redemption,
and are simply not ready for a parole eligible
adjudication.” Montgomery II, 194 So.3d
at 610 (Crichton, J., concurring). In contrast,
other inmates “were the victims of their own
once transient immaturity and regrettable
impulsivity, long since passed[.]”
Id.
Those inmates “present the lowest risk
designation based on their rehabilitative
progress through the years.” Id.
We find that neither
Miller/
Montgomery nor Montgomery II require a
court considering parole eligibility to make
factual findings of transient immaturity or
irreparable corruption. Rather, those cases

PET APP 017

instruct a court to consider the circumstances
of each particular case and determine
whether those circumstances show a LWOP
sentence
is
unconstitutionally
disproportionate to the crimes committed as
a juvenile. Thus,
Miller/ Montgomery
do not necessarily presume a juvenile should
be eligible for parole. Nevertheless, we find
the evidence presented at the hearing, taken
as a whole, shows Defendant may not be the
“worst offender” with the “worst case” who
is irreparably corrupt. Defendant has shown
**25 significant effort toward rehabilitation
and redemption, and Angola considers him to
be of its lowest risk designation.
*14 Robert Lowrey, Jr. testified at the
hearing as a licensed professional counselor
with his most recent work “in relationship
counseling,
juvenile
work,
custody
evaluations, and such as that.” He had
experience working with the Department of
Children and Family Services and the Office
of Juvenile Justice. The bulk of his work was
“with juveniles and with relationship therapy.
Marriage.” He had no involvement with
Miller/ Montgomery cases before this.
The trial court accepted Mr. Lowrey as an
expert in the field of counseling, and Mr.
Lowrey testified on Defendant’s behalf. He
explained the “rather interesting description”
of the American Academy College of
Pediatricians (AACP) regarding “the teenage
brain under construction.” The developing
front lobe is “not fully connected with the
part of the brain that involves emotional
response; and ... the frontal lobe is not fully
developed until ages 23 to 25.” Thus, “the
adolescent is impeded in how to connect
choices with emotions.” The “thorough
understanding of voluminous research in the
field” is that the teenaged brain is not fully
developed. Mr. Lowrey explained:
The

research

overwhelmingly

indicates that [seventeen-year-old
juveniles] operate impulsively and in
the emotional spectrum, rather than
the intellectual spectrum because of
the frontal lobe development or lack
of development. The brain kind of
matures at a point 23 to 25, and then
we now call that an adult brain. Prior
to that it is still exploding and
developing and all of that. That has
been indicated not only by counselors
but by brain imaging and all kind of
nuclear medicine work.
The ability to “connect a behavior with a
consequence” was something Mr. Lowrey
testified “adolescents are extremely lacking
in ability to do.” Such adolescents “operate
more out of an emotional level rather than a
reasoned level because of the developing
position of the frontal lobe, which is the
judgment **26 center. Or it has even been
called in research the chief executive officer
of the brain.”
Additionally, “[a]dolescents are most often
highly influenced by peer groups.” Thus,
“they find it difficult to choose their own
opinion over the peer group’s opinion. They
are heavily influenced by the peer group
during the time of adolescence.” Mr. Lowrey
felt Defendant “would normally be
influenced by an older peer.” However, Mr.
Lowrey agreed a seventeen-year-old would
have an understanding of the permanency of
death and would know that shooting someone
in the head would likely cause death.
According to Mr. Lowrey, “[t]rauma and
authoritarian parenting make it very difficult
for juveniles.” He described authoritarian
parenting as “the military style. Do what I say
when I say do it. Don’t ask any questions.”
The “other side” is permissive, where a child
can do what he wants; the “middle ground is
the better ground, and that is called

PET APP 018

authoritative.” Mr. Lowrey would not “seek
to judge [George] Hauser’s mental workings”
by stating an opinion about which style
George used, but he testified he “was
distressed” by George’s comment that he was
not a “lovey-dovey” person. An evaluation of
George’s parenting would require “extensive
discussions” with him. Mr. Lowrey explained
a parenting style could influence how a
juvenile learns “to cope with life.” He
admitted he knew no details of this case other
than Defendant murdered his stepmother and
her son. He understood the purpose of the
hearing was “to see what has happened in the
last 35 years.”
*15 Mr. Lowrey met Defendant at Angola
approximately eight years before the hearing,
and they have corresponded periodically
since that time. Defendant’s cousin told Mr.
Lowrey “no one had visited him from the
family in 11 years.” Mr. Lowrey helped her
facilitate a visit.
**27
The
correspondence
between
Defendant and Mr. Lowrey was “just a
personal connection” and not based on a
professional relationship; Mr. Lowrey’s
experience was that incarcerated people
“need a friend.” Mr. Lowrey believed people
can change. His initial contact with
Defendant made him think Defendant “had a
focus on making a life for himself within the
prison for whatever length he was going to be
there.” Mr. Lowrey felt “he needed some
encouragement.”
Defendant and Mr. Lowrey corresponded
“[f]our times a year, until recently[,]” when
their correspondence increased. Mr. Lowrey,
based on the correspondence, “came to
believe that [Defendant] had learned a lesson
or was learning a lesson and was capable of
changing. And [his] impression has been that
[Defendant] is not a danger to anyone else at
this point.” Defendant never expressed

himself in their correspondence as angry,
frustrated, or out of control. Mr. Lowrey
clarified he was “not expressing a
professional opinion[.]”
Mr. Lowrey testified Defendant had the
“highly coveted” position of working at
Angola’s K-9 unit, a position that was “hard
to achieve.” Nevertheless, he was “not aware
of anything that has been done with
[Defendant] since his incarceration at
Angola.” He had seen Defendant only one
time for “[p]robably 40 minutes.” He has
done no professional evaluation.
Defendant’s success at Angola was within a
highly structured environment. Mr. Lowrey
believed “[i]f someone has been incarcerated
for 35 years, they have learned how to cope
with a variety of circumstances in a nonconfrontive way; or, otherwise, they would
be injured or dead.” Mr. Lowrey’s testimony
about Defendant reflected simply what he felt
personally from their relationship. As Mr.
Lowrey stated, his testimony was not the
result of a professional endeavor,
examination, or evaluation.
**28 Terry Lane testified as a clinical social
worker who “currently run[s] juvenile and
adult sex offender treatment for adjudicated
and/or convicted, with a few private
referrals.” He received training in victim
intervention and was certified as a trauma
interventionist. The trial court accepted Mr.
Lane “as an expert in the field of sex abuse
victims.”
Mr. Lane believed recent research showed
brain development is not complete until
around age twenty-seven to thirty. The
prefrontal cortex of the brain is the area of
most concern when working with and
treating juveniles; it deals with motor control,
concentrating, planning, and problem
solving.

PET APP 019

Mr. Lane testified when Defendant was first
at the naval training center in 1983, “he was
having some stressful events at the time
already.” Defendant initially reported the
physical and sexual assault on April 29, 1983.
When Defendant returned to his hometown in
Texas, he reported the assault to his recruiter.
Mr. Lane testified his understanding of the
assault was that “unidentified males, possibly
two white and one Hispanic ... carried a pipe
with some kind of padding or towels
wrapped, maybe, on the end of it, and
administered a beating to [Defendant] about
the head and body, tied him to a bed, and
sodomized him[.]” Mr. Lane’s experience
was that a victim such as Defendant typically
felt ashamed and embarrassed about such an
event. He stated:
*16 Younger children actually have
some excited response that they feel
very negatively about; and so there’s
many, many dynamics going on in a
brain that the prefrontal cortex has
clearly not reached a developmental
stage that is equal to the adults that are
in the situation and is much more
emotionally responsive than logical.
Mr. Lane felt that type of trauma “allows a
distortion” which he described as “a change
in perspective. And those juveniles have their
cognitive processing, their thinking,
modified by the introduction of information
that they’re not old enough **29 or mature
enough to handle.” Such juveniles often do
not report the event for years.
Mr. Lane felt Defendant’s untreated
problems resulting from the assault were
important to know because they create
“immense self-esteem issues.” Victims failed
to understand what they did “to play into this
role.” Mr. Lane said, “It lowers their
insulation against peer input in negative

fashion, for sure; but it states more to a
general I’m-not-worth-it attitude ....” Mr.
Lane found it normal that Defendant had not
told his father about the assault. If Defendant
saw the attack “as somewhat his fault in some
way ... then he’s less likely to go to the
dominant disciplinarian in his life to disclose
what he sees as a weakness.” However, Mr.
Lane had no “firsthand knowledge about the
relationship” between Defendant and his
father.
Mr. Lane did not feel the trauma Defendant
experienced excused the murders. He only
met Defendant ten minutes before his
testimony. His purpose in testifying was to
“talk about impacts and additional pressures
and stressors that could have been applied at
the time ....” Juveniles do not have the same
resources or skills to resolve those stressors
as adults have. Mr. Lane understood
Defendant’s case was being reviewed for the
appropriateness of the sentence, not for guilt
or innocence.
Thomas Roller knew Defendant from
Angola. Mr. Roller had “lived at the dog pen”
with Defendant for his last eight years in
prison. He was incarcerated for the second
degree murders of his father and stepmother
on February 26, 1988, six days before his
eighteenth birthday. Mr. Roller pled guilty to
two counts of second degree murder and was
sentenced to life imprisonment without
parole. When the **30
Miller/
Montgomery cases were decided, prisoners
were unsure how to proceed. Mr. Roller
challenged his own sentence and was
released from custody in 2015.8
*17 At Angola, Mr. Roller heard of
Defendant years before they met. He
testified, “Older guys were referencing
[Defendant] in my efforts to do the right thing
all the time.” They told Mr. Roller that
Defendant had “influenced hundreds and

PET APP 020

hundreds of people to do the right thing. And
just the way he lives, his conduct.”
A prisoner had to be trusted to work in the
dog pen. After twenty years of imprisonment,
Mr. Roller “was considered a pretty model
prisoner” and got the chance to live in the dog
pen area, where no guards watched them at
night. Mr. Roller had twenty-seven writeups
during those twenty years, which he
explained was “still considered a very model
prisoner.” He learned Defendant “had one
minor rule infraction that the sentence was
suspended” some years prior. Mr. Roller said
“.003 percent of the [Angola] population”
lives at the dog pen, **31 representing fifteen
beds of the more than sixty-three hundred
inmates. A prisoner obtains that position
based on “character, trustworthiness, and
work ethic.”
Mr. Roller’s experience at Angola was that
doing the wrong thing helped him “get along
with the fellows better.” Doing the right thing
made a prisoner “stick out in a way you don’t
want to stick out among some very dangerous
people that love mischief.” Mr. Roller
considered Defendant to be a role model to
do the right thing, “the kind of guy to
emulate.” He noted:
When there’s no reason to do the right
thing ... and you still do the right thing
and you make it a point and you
volunteer for extra work to help with
dogs or to help cook an event at the
Superdome, you know, feeding, you
know, disaster victims, when you
volunteer for extra work, it’s
something to emulate. It’s the same
way in society.
Mr. Roller testified at the hearing because he
felt Defendant was deserving based on his
“exemplary educational achievements,” his
conduct, and the trustworthiness of the prison

officials. Mr. Roller believed part of the
mission of the Department of Corrections
was to rehabilitate; he felt Defendant showed
rehabilitative efforts “[f]ar more than any
person [he had] ever met there.”
Mr. Roller commented, “There’s some
Miller applicants at Angola that truly terrify
me. They’re just scary. They have not done
the right thing at all, and their mentality is just
terrifying.” Defendant was different from
those
because
of
his
character,
trustworthiness, and conduct; he was “what
you want to emulate on doing the right
thing[.]”
Robert Peters testified he visited Angola for
three days in 2009 as part of a Mike Barber
Ministries team helping with the “Crunch
Bowl” at the prison. He returned a few
months later for the rodeo and went to the dog
pen, where he met Defendant. At first, Mr.
Peters thought Defendant was a prison guard.
He described Defendant as “[j]ust [a] super
nice guy and just totally unassuming and just
as pleasant as he could be. And the friendship
was immediate.” Defendant **32 “was the
only Angola person there at the dog pen.” He
escorted Mr. Peters and his family around the
grounds.
Mr. Peters, his wife, and her parents became
pen pals with Defendant. Mrs. Peters wrote to
Defendant “at least five times a week.” The
family has visited Angola every year since
2009 in October for the rodeo and again on
Good Friday. They knew the nature of
Defendant’s crimes from the beginning.
Defendant has never asked the family for
money or for help with his legal proceedings.
The family gives Defendant birthday and
Christmas gifts; they consider him a member
of their family.
*18 A home and a choice of jobs awaits
Defendant if/when he gets out of prison. Mr.

PET APP 021

Peters recently bought a ranch with a separate
apartment for Defendant. He has a used truck
at the ranch for Defendant’s use. He has
“lined up four jobs for [Defendant] that he
has a choice of.” The Peters’ goal is for
Defendant to gain parole opportunity and
come to Texas to live with them. The family
believes Defendant deserves a second
chance. Mr. Peters believes Defendant’s
“heart is pure, his sincerity is pure ... he’s the
poster child for trustees.” He believes
Defendant “with his tremendous positiveness
and his tremendous ability ... he’s going to
pay back the community ... and make himself
a model citizen and improve his life ....”
Lorri Peters agreed with her husband’s
testimony. She testified Defendant had
warned her about inmates who would try to
trick Mr. and Mrs. Peters into giving them
money. Defendant told them all he wanted
was their friendship.
Regarding the murders, Defendant told Mrs.
Peters he went to get his belongings. He
watched the house and thought no one was
home when he saw his dad leave. Mrs. Peters
testified Defendant “was shocked to find
[John] in his bedroom in his bed; and it just –
it just happened ... It just sent him into shock
or **33 anger or rage at the time.” She did
not “remember little details” like Defendant
stealing things from the house or stopping to
drink Kool-Aid after the murders. She did not
recall anything about Defendant taking a car.
What mattered to her was “where he is now.”
Mrs. Peters thought Defendant was “a child,
running around with somebody that was way
too old for him that obviously is not a good
person.” She thought that had a lot to do with
why Defendant entered the house with a .223
assault rifle. She did not believe Defendant
went in the house “with the thought of
murder.” She did not know how Defendant
had met Mr. Kinkade.

Mrs. Peters has heard more details of the
nature of Defendant’s crimes since they first
met, but that has not changed her opinion of
him at all. She thinks “he has been
rehabilitated and reconformed [sic] in
Angola.” She believes “he’s bettered
himself.” Mrs. Peters believes Defendant
deserves a second chance to live outside of
prison and said Defendant “[h]as offered up
to [her] remorse.” She sees Defendant as “a
changed person.” Mr. and Mrs. Peters have
even discussed adding Defendant to their
wills, and they want him to be a part of their
family. Mrs. Peters’ parents call Defendant
their son, and he calls them Grandma and
Grandpa.
Defendant was the last to testify. He
understood the hearing was about the
Miller/
Montgomery rulings “that even
children who commit heinous crimes are
capable of change ... have a greater
propensity for rehabilitation and if during
their years of incarceration they’ve shown
maturity, they must be afforded a meaningful
opportunity for release.”
Defendant did not think a juvenile could
understand the implications of what he had
done, taking “not just two people’s lives, but
... someone’s mother, someone’s brother,
son.” He testified, “I’m not the same person,
and I’m so sorry for what happened.” He
realized what he did not only took two
people’s lives, it **34 also “ruined the lives
of the people that loved them, even the lives
of the people that loved me.”
After his arrest, Defendant said he tried to
write his father several times and even
crocheted “a little hat to send him.” He never
received a reply. Defendant felt he had made
peace with Raymond Leidig after receiving
his letter of forgiveness.

PET APP 022

At the time of the hearing, Defendant’s sister
was receiving treatment for leukemia at M.D.
Anderson, and his mother had been injured in
a recent fall. Neither was able to attend the
hearing, but Defendant’s sister wrote a letter
in his favor.
*19 At Angola, Defendant had one conduct
writeup around 1986 or 1988 for “not
working fast enough.” He received a
reprimand that was suspended. He had no
other disciplinary issues since that time.
After a few years at Angola, Defendant began
taking correspondence courses. He passed
five courses in anger management; finished
the automotive technology school; and
passed “the ASE certifications for engine
repair, electrical electronic systems,
automatic
transmissions,
manual
transmissions, engine performance, [and] the
H-back test.” He went through the cooking
school and completed numerous other
educational programs.
Defendant was featured in a documentary
filmed at Angola at the dog pen where he
worked. He volunteered for that project
“because everything that you see on TV
about prison and prisoners is not always true.
There’s not all that drama.” He wanted to
show “there are a lot of people who are in
prison that have really tried to rehabilitate
themselves and do the right thing, regardless
of what they’ve done in the past, regardless
of how terrible of a crime they’ve
committed.” Defendant felt he “would be a
good candidate for that.” He said he accepted
full **35 responsibility for what happened,
was sorry, wished it had never happened, and
wished he “could go back and do things
differently.”
About forty hours of filming the
documentary video at the dog pen at Angola
was edited to thirty to forty-five minutes. It

did not show Defendant displaying any
remorse for the murders, even though
Defendant testified they “did pretty lengthy
interviews at different times about all of
that[.]” The warden had “the final say-so as
to what was actually – what would actually
be aired.”
Defendant first went to the dog pen in 1996.
He left for a while when he was accepted into
the automotive technology school. He gets up
at 2:00 a.m. to check on the animals. Some
days are very long and do not end until 7:00
p.m. Defendant tries “to be a role model for
some of the guys who’ve just come there and
are still trying to find their niche.” He has
been “a minimum A class trustee[,]” a
classification not easily earned, since the
summer of 1992. He does not have to be
behind a fence; he can go anywhere on the
prison grounds without supervision. He
believes he has been rehabilitated and could
rejoin society.
Defendant met a woman as a pen pal and
eventually married her, but “it didn’t last, like
most prison relationships[.]” He never sought
therapy as a result of the assault in the Navy
because he did not want anyone to know
about it. He might possibly be willing to
undergo therapy, but he was not sure about
the benefit because the assault happened so
long ago. He believes he has done a lot in
thirty-five years to overcome that incident.
Defendant thinks the only thing he can do “is
try to live [his] life in a way that would honor
the victims, if there’s ever such a thing.”
On cross-examination, Defendant confirmed
he takes full responsibility for what he did.
However, he then testified “there were a lot
of things that were contributing factors to it.”
He agreed he blamed his immaturity, and he
said at the **36 time he “didn’t know the farreaching implications of what taking
somebody’s life actually means.” He felt his

PET APP 023

father did not love him and did not treat him
right. He no longer feels that way and is no
longer angry with his father. He
acknowledged he could have turned around
and left the house when he saw Joan. In
contrast to the autopsy report, Defendant said
Joan never saw him, and she was not looking
at him when he shot her on her right cheek
slightly below her eye. Again, although the
autopsy report showed a second shot to the
right side of the chest, Defendant testified he
did not remember Joan facing him. He
thought he shot her in the back.
*20 Defendant likewise did not remember
John looking at him even though the autopsy
report showed one wound on the right side of
the head beneath the right eye and another
wound through his right forearm, as though
he put his arm up to block the shot. Although
Defendant would not say he committed the
murders because he was raped in the Navy,
he thought “everything has a bearing on the
actual events that took place.” He accepted
responsibility for his acts, but he wanted a
new beginning, a second chance. He asked
the court to consider his youthfulness and the
facts and circumstances. Defendant testified
he harbored growing anger from around age
ten to the time of the murders toward his
father “[t]o an extent[,]” and his mother
probably fueled that anger by telling him
“different stories that had happened to her.”
Defendant said he feels no anger about being
in custody; if he has anger, it is at himself
because he could have done something better
with his life.
Although Defendant knew of a prison rule
that he could not contact relatives of victims,
Defendant said he wrote to Dr. Leidig and to
his father. He testified Dr. Leidig lied when
he said Defendant responded to his letter and
cursed him. Defendant said he actually
thanked Dr. Leidig for writing him, told him
he was sorry, and asked for forgiveness. He

thought Dr. Leidig would have kept any letter
**37 Defendant had written him that “cussed
him out and called him every other name,”
and he thought it suspicious that Dr. Leidig
told no one about the supposed letter.
The trial court asked Defendant what he
considered to be a proper punishment for
taking two lives. Defendant responded, “if it
was my loved one, I would want their life for
it.” He questioned whether the purpose of
incarceration was punitive or rehabilitative,
and he asked about the purpose of continued
incarceration if “children who have
committed heinous crimes are capable of
change.” Defendant did not see much
difference between someone eighteen years
old and another person one day younger
except that the courts draw the line at age
eighteen. He commented, “until our laws
change or until our country, our cultures
decide to take that issue up, we’re stuck with
the United States Supreme Court recognizing
a juvenile as anyone under the age of 18.”
Defendant reiterated he thought “anybody is
capable of change.”
Assistant Warden Jonathan London wrote a
character reference letter at Defendant’s
request dated September 9, 2016. Assistant
Warden London considered Defendant “a
hard worker ... a decent man at the core.” He
noted Defendant’s dedication to the K-9
program. He explained inmates assigned to
the dog pen “are carefully selected and highly
trusted[.]” They are assigned to “the lowest
security housing area on Penitentiary grounds
... [and] are often called upon to perform
numerous special projects on and off
Penitentiary grounds.” Assistant Warden
London also noted Defendant had “taken
advantage of many educational and self-help
programs” offered at Angola.
Lieutenant Colonels Johnny Dixon and Joe
Norwood, Jr. also wrote a character reference

PET APP 024

letter. They explained Defendant was
assigned to the K-9 training center in October
of 2001. Defendant “has awesome culinary
skills and **38 takes pride in the meals he
prepares for the Dog Pen workers and staff.”
He keeps the kitchen “always clean, neat and
kept to the highest sanitation codes.”
Defendant’s attention and caring attitude
toward the dogs has identified medical
problems with them, and he has summoned
help through proper channels during off-duty
hours that has saved the lives of these
valuable dogs. He has worked long hours and
performed extra duties. He has also
volunteered to help in emergency situations
such as floods and hurricanes. Importantly,
the Lieutenant Colonels stated, “During the
fifteen years [Defendant] has worked under
our supervision, we have never seen him lose
his temper. [Defendant] is always easy going
and calm natured.”
*21 Defendant’s sister Robin wrote the court
noting Defendant had applied himself in
prison, achieved multiple accomplishments,
and shown “his responsibility capabilities.”
She felt his conduct in prison showed “he can
and does conform to rules and regulations,
changing his life for the better.”
Still others – pen pals – have written the trial
court with laudatory words about Defendant.
They spoke of how Defendant was
completely open with them about his crimes
and of how their relationships with him have
changed their lives for the better. The letters
spoke highly of Defendant’s character, his
positive nature, and his attitude of hope even
in an environment of life without the
possibility of parole.
Another letter from a prison ministry
associate, Kevin Miller, noted he felt safe
with Defendant and others who worked at the
dog pen. He believed Defendant is not the

same person now that he was as “a kid.” He
agreed with Defendant’s original LWOP
sentence, but he also agreed with the
Supreme Court that a juvenile should not be
punished as an adult. Mr. Miller stated, “No
one can **39 have a track record in a glass
house as impressive as [Defendant’s], and
especially not for 35 years, and still make bad
decisions he did as a youth.”
Nevertheless, numerous people wrote to the
trial court asking for Defendant to be denied
parole. Some of the letters spoke of the
horrendous crimes and the loss of the victims.
Others simply stated they were opposed to
Defendant being granted the opportunity of
parole and/or being released from prison.
Some of the writers mentioned they had
heard Defendant was rehabilitated but were
nevertheless strongly opposed to his
eligibility for parole and to his release from
prison.
In
State v. Williams, 50,060 (La.App. 2
Cir. 9/30/15), 178 So.3d 1069, writ denied,
15-2048 (La. 11/15/16), 209 So.3d 790, the
seventeen-year-old defendant fired fifteen
rounds from a military assault weapon into a
house where seven people were asleep. He
bragged about the shooting, not knowing his
intended victim was not in the house. One of
the people inside the house was wounded,
and an eighteen-month-old child was killed
in his playpen.
The defendant was sentenced to LWOP;
Miller was decided while his conviction and
sentence were on appeal. At the
Miller
hearing, evidence showed the defendant
compiled a lengthy disciplinary record while
he was in jail awaiting trial. He refused to
follow rules; he cursed and threatened
deputies. The trial court again sentenced the
defendant to LWOP. The second circuit
affirmed the sentence noting the defendant
was one of the worst offenders in one of the

PET APP 025

worst cases.
Likewise, the seventeen-year-old defendant
in State v. Alridge, 17-231 (La.App. 4 Cir.
5/23/18), 249 So.3d 260, writ denied, 181046 (La. 1/8/19), 259 So.3d 1021, stabbed a
fifteen-year-old boy forty-nine times,
wrapped his face in **40 duct tape, and left
his body covered with plastic in an
abandoned house.9 He was sentenced to
LWOP. Testimony at the defendant’s
Miller hearing showed his juvenile record
included possession of a contraband cell
phone, obscenity, and two counts of battery
of a correctional officer while he was in jail
awaiting trial for the murder. The defendant
“was on the highest security classification
within the prison system[,]” which required
him to be locked down for twenty-three hours
a day. Id. at 289. His hands and legs were
restrained during the one hour he was
allowed out of his cell. This security level
indicated the defendant was “one of the most
dangerous inmates in Orleans Parish
Prison[.]” Id.
*22 The trial court noted the heinous nature
of the crime and found no mitigating
circumstances. The court further found the
defendant’s conduct did not represent
impulsive behavior. The fourth circuit
affirmed the LWOP sentence.
The seventeen-year-old defendant shot and
killed a homeless crack addict in State v.
Smoot, 13-453 (La.App. 5 Cir. 1/15/14), 134
So.3d 1, writ denied, 14-297 (La. 9/12/14),
147 So.3d 704. The trial court noted the
defendant came from a broken home, was
raised by his grandfather, and had received
psychiatric treatment and counseling while
he lived in group homes and Boys Town from
the age of twelve to fifteen. The defendant
was serving a sentence for possession of
cocaine with the intent to distribute at the
time of his murder trial. He also had a prior

arrest for second degree murder, but the
charge was refused when witnesses would
not testify. The trial court noted the
particularly heinous nature of the crime and
found the defendant’s youth to be the only
mitigating circumstance. The fifth circuit
affirmed the sentence.
**41 In
State v. Brooks, 49,033, p. 1
(La.App. 2 Cir. 5/7/14), 139 So.3d 571, 573,
writ denied, 14-1194 (La. 2/13/15), 159
So.3d 459, the defendant was four months
away from turning eighteen and a member of
one of two gangs who “had long been having
a turf battle” over an apartment complex. He
fired an assault rifle at rival gang members as
they ran away from him and his brother, who
was firing a pistol. The victim was a fifteenyear-old innocent bystander. Evidence
indicated the fatal shot may have been fired
from a handgun rather than from the assault
rifle the defendant fired. The defendant
showed no remorse or explanation for the
“senseless murder” and failed to comprehend
that he had escalated the situation and
endangered many lives. Id. at 575.
The defendant’s mother had drug problems
and was frequently incarcerated; his father
had not been involved in his life and sold and
used drugs. The defendant had problems in
school and dropped out at age fourteen. The
fifth circuit affirmed the trial court’s
imposition of a LWOP sentence.
On the other hand, in 1994, the juvenile
defendant pled guilty to second degree
murder in State v. Young, 18-564 (La.App. 1
Cir. 11/5/18), 2018 WL 5785260
(unpublished opinion), writ denied, 18-1968
(La. 5/20/19), 271 So.3d 201. He and other
occupants of a vehicle had opened fire and
killed a bicyclist. At the defendant’s
Miller hearing, the trial court resentenced the
defendant to life imprisonment with the
possibility of parole pursuant to La.Code

PET APP 026

Crim.P. art.
15:574.4(G).

878.1

and

La.R.S.

In this case, we find Defendant has a great
advantage over the defendants denied parole
eligibility in the cases discussed above by
virtue of his thirty-five-year history of model
behavior. While Defendant’s crimes seem
every bit as heinous as the cases denying
parole eligibility, he has the benefit of history
that has shown tremendous evidence of
rehabilitation. Defendant has compiled a
stellar, **42 model, and exemplary prison
record. None of the evidence offered at the
resentencing hearing suggested Defendant
has not been rehabilitated. Again, the
Supreme Court emphasized that “[t]he
opportunity for release will be afforded to
those who demonstrate the truth of
Miller’s central intuition—that children who
commit even heinous crimes are capable of
change.”
Montgomery, 136 S.Ct. at 736.
The Supreme Court held in Miller that:
*23 [C]hildren are constitutionally
different from adults for purposes of
sentencing. Because juveniles have
diminished culpability and greater
prospects for reform, ... ‘they are less
deserving
of
the
most
severe
punishments.’ ...
....
That is especially so because of the great
difficulty we noted in
Roper and
Graham of distinguishing at this early age
between “the juvenile offender whose
crime reflects unfortunate yet transient
immaturity, and the rare juvenile offender
whose
crime
reflects
irreparable
corruption.”
Miller, 567 U.S. at 471, 479-80, 132 S.Ct.
2455, (citing Roper v. Simmons, 543 U.S.
551, 573, 125 S.Ct. 1183, 1197, 161 L.Ed.2d
1 (2005), and
Graham v. Florida, 560
U.S. 48, 68, 130 S.Ct. 2011, 2026-27, 176

L.Ed.2d 825 (2010)).
Miller also found
the “appropriate occasions for sentencing
juveniles to the harshest possible penalty will
be uncommon.” Miller, 567 U.S. at 479,
132 S.Ct. 2455. We find that Defendant’s
prison record and evidence of rehabilitation
have demonstrated he is not irreparably
corrupt.
Defendant presented evidence that the brains
of juveniles are not mature at the point that he
committed these murders. He presented
evidence of a traumatic physical and sexual
assault a few months prior to these murders
that possibly increased feelings of resentment
and colored his judgment.
[7]

[8]

None of this evidence excuses or
condones Defendant’s crimes. However, it
does show Defendant has matured in prison,
has demonstrated model behavior in spite of
a most difficult environment, has developed
positive relationships, and has **43 the
opportunity for a successful future outside of
prison if he is ever able to achieve parole. The
standard of review in a sentencing matter is
whether the trial court abused its discretion,
and this court should not set aside
Defendant’s sentence absent an abuse of
discretion. Alridge, 249 So.3d 260. Based
on our review of the record, and in light of
Miller and
Montgomery, we conclude
that the trial court abused its discretion in
denying Defendant’s motion to correct his
illegal sentence. Accordingly, we reverse the
trial court’s judgment, and we resentence
Defendant to two concurrent sentences of life
imprisonment with the possibility of parole.
Because we have determined that the trial
court abused its discretion in denying
Defendant the opportunity for parole, we
need not address Defendant’s remaining
assignments of error.
DECREE:

PET APP 027

For the foregoing reasons, we find that the
trial court erred in denying Defendant the
opportunity for parole. Defendant has
provided sufficient evidence to show he is not
irreparably corrupt and is entitled to
resentencing to two concurrent life sentences
with the possibility of parole. Accordingly,

we reverse the trial court judgment and
resentence Mr. Aaron Hauser to two
concurrent sentences of life imprisonment
with the possibility of parole.
REVERSED.

Footnotes
1

We note that our decision should not be interpreted as minimizing the seriousness of the horrendous
crimes committed by Defendant; rather, our decision merely reflects the distinction that the current
law now recognizes a difference between juveniles and adults who commit the crime of murder.

2

The facts are taken from a composite of statements and discovery materials from the Beauregard
Parish suit record in CR-1983-548 and of testimony elicited at the resentencing hearing. We believe
a lengthy review of the facts is necessary because of the influence Defendant contends his
background had on the crimes he committed.

3

Because a number of people mentioned in this opinion bear the last name of “Hauser,” we refer to
them by their first names.

4

Defense counsel stipulated to the admission of these statements.

5

To avoid confusion, we refer to the court that accepted Defendant’s plea and imposed his sentences
as “the sentencing court” and to the court that presided over post-conviction proceedings as “the
trial court.”

6

This motion was filed under seal.

7

Shaffer, 77 So.3d 939, has now been superseded in part by the amendments and enactments to
La.R.S. 15:574.4.

8

Mr. Roller’s testimony included the facts of his case. His earliest memories were of his father
abusing his mother and of his own serious medical issues that resulted from living in a home with
those traumatizing events. He was found to have a learning disability in the second grade, and he
learned later “it’s all related to trauma” that “can just retard certain areas.”
When questioned about the murders, Mr. Roller testified he never really formally planned to commit
them. He commented, “My anger toward my father had been building with his abuse. My
stepmother was not really a part of this.” He planned to go to his room, shut the door, and wait for
them to leave. He “got scared of [his] father and thought, I can never make it down that hall, I’m
going to get a gun and go to my room.” He still could not “make it down the hall[,]” and he went
into his bathroom, where he sat in the dark. He shot his stepmother when she turned on the bathroom
light and screamed; he exited the bathroom and was trapped by his father at the end of the hall. He

PET APP 028

shot his father also. Mr. Roller said he got the gun because he “was just terrified.” The entire
unplanned episode happened “awfully fast.” His attorney, a close family friend, told him to plead
guilty to second degree murder with sentences of life without parole, and he did.
The trial court allowed Mr. Roller to withdraw his guilty pleas to second degree murder and plead
guilty to manslaughter. Additionally, the sister of Mr. Roller’s stepmother and others in her family
spoke in his favor, and the State did not oppose the motion. Mr. Roller served twenty-seven years
of his original LWOP sentences in prison. This court has not adopted the practice of reducing a
Miller defendant’s charge to manslaughter. See State v. Comeaux, 17-682 (La.App. 3 Cir. 2/15/18),
239 So.3d 920, writ denied, 18-428 (La. 1/14/19), 261 So.3d 783.
9

The defendant filed a petition for certiorari with the Supreme Court, which distributed the case for
conference on October 1, 2019. The Court has not yet indicated whether it will grant or deny the
writ application.

PET APP 029

PET APP 030

PET APP 031

PET APP 032

PET APP 033

PET APP 034

PET APP 035

PET APP 036

PET APP 037

PET APP 038

PET APP 039

PET APP 040

PET APP 041

PET APP 042

PET APP 043

PET APP 044

PET APP 045

PET APP 046

PET APP 047

PET APP 048

PET APP 049

PET APP 050

PET APP 051

PET APP 052

PET APP 053

PET APP 054

PET APP 055

PET APP 056

